NO.

IN THE
SUPREME COURT OF THE UNITED STATES

PASTOR MARIO L. SIMS,
Petitioner,
v.
BANK OF NEW YORK
Respondent

PROOF OF SERVICE
I, Pastor Mario L. Sims, do hereby swear or declare that on August 24, 2021,
as required by U.S, Supreme Court Rule 29,1 have served the enclosed PETITION
FOR WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Shannon O’Connell Egan
Nathan H. Blaske
Dinsmore & Shohl LLP
255 East Fifth Street, Suite 1900
Cincinnati, Ohio 45202

RECEIVED"
Aug 3 0 2021
1

SUPREMFFnou^L^RJ<

Bradley P. Colbom
Anderson Agostino & Keller, P.C.
131 South Taylor Street
South Bend, Indiana 46601
I declare under the penalty of peijury that the foregoing is true and correct.
Executed on August 24, 2021.

P£s£p»Mario L. Sims {pro se)
2f$fn4> Grove Street
Sputh Bend, Indiana, 46628
(574) 298-0110
Email: mariolsims@gmail.com

2

